No. 20-843
In the

Supreme Court of the United States
New York State Rifle &
Pistol Association, Inc., et al.,
Petitioners,
v.
Kevin P. Bruen, in His Official
Capacity as Superintendent of
New York State Police, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Second Circuit

Brief of Amicus Curiae
Americans Against Gun Violence
in Support of RESPONDENTS
A nthony Schoenberg
Patrick Loi
Counsel of Record
Farella Braun + Martel LLP
235 Montgomery Street, 17th Floor
San Francisco CA 94104
(415) 954-4400
ploi@fbm.com
Counsel for Amicus Curiae
Americans Against Gun Violence
307525

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
I.	INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . 1
II. BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
III. SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . 6
IV. ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
A. Heller ’s conclusion that the Second
A mend ment prot ect s a n i nd iv idua l
right to keep and bear arms unrelated
to service in a well regulated Militia
is inconsistent with the language and
history of the Second Amendment . . . . . . . . . . . . 8
1.

Heller’s reasoning did not give effect
to the Second Amendment’s Militia
Clause  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

2.

Even d i s r eg a r d i ng t he M i l it i a
Clause, the Arms Clause itself only
extends to military contexts . . . . . . . . . . . . 10
a. The Heller majority opinion did not
give sufficient weight to substantial
evidence that the phrase “bear arms”
had a military connotation . . . . . . . . . . 11

ii
Table of Contents
Page
b. New empirical methods for studying
founding-era English usage further
demonstrate that the phrase “keep
and bear Arms” refers to collective,
military firearm use . . . . . . . . . . . . . . . 13
3.

There is no evidence that the Second
Amendment was understood to codify a
preexisting right to bear arms . . . . . . . . . . 16

4.

The drafters know ingly declined
to include language in the Second
A mendment that wou ld have
provided for an individual right to
use firearms for self-defense . . . . . . . . . . . .19

5.

The Second Amendment’s reference
to the right to keep and bear arms
as a right of “the people” does not
establish that it was an individual
right belonging to every person . . . . . . . . . 24

B. The Court should overrule Heller  . . . . . . . . . . . 27
V.	CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Adams v. Williams,
407 U.S. 143 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Agostini v. Felton,
521 U.S. 203 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Aymette v. State,
21 Tenn. 154 (1840) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
District of Columbia v. Heller,
554 U.S. 570 (2008) . . . . . . . . . . . . . . . . . . . . . . . passim
Duncan v. Becerra,
970 F.3d 1133 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . 28
English v. State,
35 Tex. 473 (1872)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Gillespie v. Indianapolis,
185 F.3d 693 (7th Cir. 1999) . . . . . . . . . . . . . . . . . . . . . 3
Hickman v. Block,
81 F.3d 98 (9th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . . 3
Janus v. Am. Fed’n of State, Cty., & Mun. Emps.,
Council 31,
138 S. Ct. 2448 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . 27

iv
Cited Authorities
Page
Lewis v. United States,
445 U.S. 55 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Marbury v. Madison,
5 U.S. 137 (1803)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Myers v. United States,
272 U.S. 52 (1926)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Prout v. Starr,
188 U.S. 537 (1903)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Silveira v. Lockyer,
312 F.3d 1052 (9th Cir. 2002) . . . . . . . . . . . . . . . . . 3, 12
State v. Workman,
14 S.E. 9 (W. Va. 1891)  . . . . . . . . . . . . . . . . . . . . . . . . 13
Thomas v. Members of City Council of Portland,
730 F.2d 41 (1st Cir. 1984)  . . . . . . . . . . . . . . . . . . . . . . 3
United States v. Emerson,
270 F.3d 203 (5th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . 3
United States v. Hale,
978 F.2d 1016 (8th Cir. 1992)  . . . . . . . . . . . . . . . . . . . . 3
United States v. Haney,
264 F.3d 1161 (10th Cir. 2001)  . . . . . . . . . . . . . . . . . . . 3

v
Cited Authorities
Page
United States v. Johnson,
441 F.2d 1134 (5th Cir. 1971)  . . . . . . . . . . . . . . . . . . . . 3
United States v. Johnson,
497 F.2d 548 (4th Cir. 1974) . . . . . . . . . . . . . . . . . . . . . 3
United States v. Miller,
307 U.S. 174 (1939) . . . . . . . . . . . . . . . . . . . . . . . . .2, 3, 8
United States v. Napier,
233 F.3d 394 (6th Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 3
United States v. Parker,
362 F.3d 1279 (10th Cir. 2004) . . . . . . . . . . . . . . . . . . . 3
United States v. Rybar,
103 F.3d 273 (3d Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 3
United States v. Scanio,
No. 97-1584, 1998 WL 802060
(2d Cir. Nov. 12, 1998) . . . . . . . . . . . . . . . . . . . . . . . . . . 3
United States v. Sprague,
282 U.S. 716 (1931)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Wright,
117 F.3d 1265 (11th Cir. 1997)  . . . . . . . . . . . . . . . . . . . 3

vi
Cited Authorities
Page
Statutes & Other Authorities
U.S. Const. amend. II  . . . . . . . . . . . . . . . . . . . . . . . passim
Alison L. LaCroix, Historical Semantics and
the Meaning of the Second Amendment,
The Panorama (Aug. 3, 2018) . . . . . . . . . . . . . . . . . . . 14
Brief for American Public Health Association
et al, Di str i c t of Columbi a v. Hell er,
2008 WL 157191 (U.S.) . . . . . . . . . . . . . . . . . . . . . . . . . 6
Brief for Professors of Linguistics and English
Dennis E. Baron, Ph.D., Richard W. Bailey,
Ph.D. and Jeffrey P. Kaplan, Ph.D. in Support
of Petitioners, District of Columbia v. Heller,
2008 WL 157194 (U.S.) . . . . . . . . . . . . . . . . . . . . . . . . 12
Brief of the American Academy of Pediatrics
et al, Di str i c t of Columbi a v. Hell er,
2008 WL 157189 (U.S.) . . . . . . . . . . . . . . . . . . . . . . . . . 6
C a r l T. B o g u s , T h e Hi d d e n Hi s t o r y
of the Second Amendment,
31 U.C. Davis L. REV. 309 (1998) . . . . . . . . . . . . . . . . 4
Dennis Baron, Corpus Evidence
Illuminates the Meaning of Bear Arms,
46 Hastings Const. L.Q. 509 (2019) . . . . . . . . . . .  14, 15

vii
Cited Authorities
Page
Erin Grinshteyn & David Hemenway, Violent
Death Ra t es: Th e US Co mpared w ith
Other High-Income OECD Countries, 2010,
129(3) Am J Med 266 (2016) . . . . . . . . . . . . . . . . . . . . 29
Fatal Injury Data | WISQARS | Injury Center | CDC,
Centers for Disease Control and Prevention . . .  28-29
James C. Phillips, Daniel M. Ortner & Thomas
R. Lee, Corpus Linguistics & Original Public
Meaning: A New Tool To Make Originalism
More Empirical, 126 Yale L.J. Forum 21 (2016)  . . 14
Lois K. Lee et al., Firearm Laws and Firearm
Homicides: A Systematic Review, JAMA
Intern. Med. (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Lord Douglas Cullen, The Public Inquiry into the
Shootings at Dunblane Primary School on
13 March 1996 (1996) . . . . . . . . . . . . . . . . . . . . . . . . . .19
Michael J. North, Gun Control in Great Britain
after the Dublane Shootings, Reducing Gun
Violence in America: Informing Policy with
Evidence and Analysis, 185-193, 191 (2013) . . . . . . 19
Michael Waldman, How the NRA Rewrote the
Second Amendment, POLITICO Magazine
(May 19, 2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5

viii
Cited Authorities
Page
Reis Thebault and Danielle Rindler, Shootings
never stopped during the pandemic: 2020 was
the deadliest gun violence year in decades,
The Washington Post (March 23, 2021) . . . . . . . . . . 29
Saul Cornell, “Half Cocked”: The Persistence
of Anachronism and Presentism in the
Academic Debate Over the Second Amendment,
106 J. Crim. L. & Criminology 203 (2016) . . . . . . .  3-4
St. George Tucker and Sir William Blackstone,
Blackstone’s Commentaries: With Notes
of Refer e n ce t o th e Co n stituti o n an d
Laws, of the Federal Government of the
United States, and of the Commonwealth
of Virginia : With an Appendix to Each
Volume, Containing Short Tracts Upon Such
Subjects as Appeared Necessary to Form a
Connected View of the Laws of Virginia as a
Member of the Federal Union, Volume First,
Part First, Appendix, Note D: View of the
Constitution of the United States (1996)  . . . . . . . 17-18
Sup. Ct. R. 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Th e Me a nin g(s) of “ Th e Pe o pl e” in th e
Constitution, 126 Harv. L. Rev. 1078 (2013) . . . . . . 26
The Public Inquir y into the Shootings at
Dunblane Primary School on March 13, 1996:
The Government Response (1996)  . . . . . . . . . . . . . . 19

ix
Cited Authorities
Page
Tony McEnery & A ndrew Wilson, Cor pus
Linguistics: An Introduction, 1 (2d ed. 2001) . . . . . 13
Wa r r e n E . B u r g e r, P B S N e w s H o u r,
December 16, 1991  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

1
I.	INTEREST OF AMICUS CURIAE1
Amicus Curiae Americans Against Gun Violence
(“AAGunV”) is a nonprofit organization whose principal
purpose is to advocate for definitive measures to reduce
the rates of firearm-related deaths and injuries to levels
at or below the rates seen in peer countries. AAGunV
offers this brief to provide the Court with additional
information and context regarding the development of the
individual rights view of the Second Amendment and the
reasons the Court should overrule District of Columbia
v. Heller, 554 U.S. 570 (2008) and decide this appeal in
favor of Respondents.
II. BACKGROUND
The text of the Second Amendment provides: “A well
regulated Militia, being necessary to the security of a free
State, the right of the people to keep and bear Arms, shall
not be infringed.” U.S. Const. amend. II.
Over the course of U.S. history, courts universally
understood this language to provide only a limited,
collective right to possess firearms to the extent necessary
to maintain effective state militias (the “collective rights”
view) rather than a broad, individual right to possess
1. All parties have provided written consent to the filing of
this brief. Pursuant to Supreme Court Rule 37.6, the undersigned
counsel hereby certifies that no party’s counsel or other person
authored the brief in whole or in part or contributed money
intended to fund preparing or submitting the brief, and no person
or entity other than AAGunV, its members, and its counsel made
a monetary contribution to the preparation or submission of the
brief.

2
and use firearms for personal purposes unconnected
with militia service (the “individual rights” view). This
was because the phrase “A well regulated Militia being
necessary to the security of a free State,” (the “Militia
Clause”) was interpreted as setting out the purpose and
scope of the protection granted in the phrase “the right of
the people to keep and bear Arms, shall not be infringed”
(the “Arms Clause”).
This Court twice found that this was the proper way
to construe the Second Amendment. In United States v.
Miller, 307 U.S. 174, 176 (1939), it considered the scope
of the Second Amendment when criminal defendants
asserted that a federal gun control law restricting the
transport of sawed-off shotguns violated their Second
Amendment rights. The Court found that the “guarantee
of the Second Amendment [was] made” with the “obvious
purpose to assure the continuation and render possible
the effectiveness of [the Militia],” and accordingly, the
Second Amendment did not protect firearm possession or
use that did not further this purpose. Id. at 178 (“In the
absence of any evidence tending to show that possession
or use of [the prohibited gun at issue] at this time has
some reasonable relationship to the preservation or
efficiency of a well regulated militia, we cannot say that
the Second Amendment guarantees the right to keep such
an instrument.”). Forty years later, in Lewis v. United
States, 445 U.S. 55, 65 n. 8 (1980), the Court reaffirmed
that the Second Amendment does not confer an individual
right to own firearms for personal use. Id. (explaining
that the “Second Amendment guarantees no right to keep
and bear a firearm that does not have ‘some reasonable
relationship to the preservation or efficiency of a well
regulated militia.’”).

3
With the exception of one outlier, every federal circuit
court to consider the issue applied Miller to hold that the
Second Amendment does not protect the right to possess
and use guns for private, civilian purposes. 2 Prior to
Heller, the Ninth Circuit conducted a detailed analysis of
the Second Amendment in Silveira v. Lockyer, 312 F.3d
1052, 1087 (9th Cir. 2002), examining both the language
of the provision and the historical record informing its
adoption, and it concluded that “the collective rights view,
rather than the individual rights models, reflects the
proper interpretation of the Second Amendment.”
While the collective rights view was the law applied
by courts at every level, the individual rights view was
fabricated over the course of decades through the efforts
of pro-gun special interests. Saul Cornell, “Half Cocked”:
The Persistence of Anachronism and Presentism in the
2. See, e.g., United States v. Haney, 264 F.3d 1161, 1164-1166
(10th Cir. 2001); United States v. Napier, 233 F.3d 394, 402-404 (6th
Cir. 2000); Gillespie v. Indianapolis, 185 F.3d 693, 710-711 (7th
Cir. 1999); United States v. Scanio, No. 97-1584, 1998 WL 802060,
*2 (2d Cir. Nov. 12, 1998) (unpublished opinion); United States v.
Wright, 117 F.3d 1265, 1271-1274 (11th Cir. 1997); United States
v. Rybar, 103 F.3d 273, 285-286 (3d Cir. 1996); Hickman v. Block,
81 F.3d 98, 100-103 (9th Cir. 1996); United States v. Hale, 978
F.2d 1016, 1018-1020 (8th Cir. 1992); Thomas v. Members of City
Council of Portland, 730 F.2d 41, 42 (1st Cir. 1984) (per curiam);
United States v. Johnson, 497 F.2d 548, 550 (4th Cir. 1974) (per
curiam); United States v. Johnson, 441 F.2d 1134, 1136 (5th Cir.
1971). In the one outlier case, United States v. Emerson, 270 F.3d
203, 260 (5th Cir. 2001), the Fifth Circuit adopted the individual
rights view of the Second Amendment, but subsequent Court of
Appeals decisions declined to follow Emerson. See Silveira v.
Lockyer, 312 F.3d 1052, 1060-66 (9th Cir. 2002); United States v.
Parker, 362 F.3d 1279, 1283-84 (10th Cir. 2004).

4
Academic Debate Over the Second Amendment, 106 J.
Crim. L. & Criminology 203, 205-206 (2016) (explaining
that “the ‘individual rights’ view articulated in Heller
. . . was largely an invented historical tradition. Gun rights
advocates both within and outside of the legal academy
worked assiduously to create this revisionist history of
the Second Amendment and deployed it effectively in
Heller . . .”). Until the latter part of the 20th century,
the individual rights view was non-existent. Michael
Waldman, How the NRA Rewrote the Second Amendment,
POLITICO Magazine (May 19, 2014), https://w w w.
politico.com/magazine/story/2014/05/nra-guns-secondamendment-106856/ (last visited September 15, 2021)
(“From 1888, when law review articles were first indexed,
through 1959, every single one on the Second Amendment
concluded it did not guarantee an individual right to own a
gun.”). However, that changed in the late 1970’s when the
gun lobby began channeling substantial money toward the
idea that the Second Amendment protected an individual
right to firearms. Id. (explaining that “a squad of attorneys
and professors began to churn out law review submissions,
dozens of them, at a prodigious rate” with “[f]unds—much
of them from the [National Rifle Association]—flow[ing]
freely.”) see also Carl T. Bogus, The Hidden History of the
Second Amendment, 31 U.C. Davis L. REV. 309, 317 (1998)
(explaining that “the gun lobby pursued an aggressive
campaign to build a body of favorable literature” and an
“arm of the National Rifle Association [] dispensed sizable
grants to encourage writing that favored the individual
rights model . . .”).
Through this campaign of misinformation, the gun
lobby sought to create a mistaken understanding of
the law in hopes of ultimately fostering a shift in the

5
law itself. Over time, the popular understanding of the
Second Amendment among Americans gradually shifted
to the individual rights view even though that view was
completely divorced from how the Second Amendment
was interpreted by the courts. See Waldman, supra (“In
1959, according to a Gallup poll, 60 percent of Americans
favored banning handguns; that dropped to 41 percent
by 1975 and 24 percent in 2012. By early 2008, according
to Gallup, 73 percent of Americans believed the Second
Amendment ‘guaranteed the rights of Americans to own
guns’ outside the militia.”).
Supreme Court justices recognized even while it was
happening that pro-gun special interests were attempting
to manufacture constitutional protection for the individual
use of firearms. See Adams v. Williams, 407 U.S. 143, 150
(1972) (Douglas, J. dissenting) (recognizing that “[t]here is
no reason why all pistols should not be barred to everyone
except the police” but at the same time a “powerful lobby
dins into the ears of our citizenry that [pistol purchases]
are constitutional rights protected by the Second
Amendment . . . ”). The gun lobby’s misrepresentation
of the Second Amendment was so contrary to history,
established law, and the amendment’s own language that,
in 1991, former Chief Justice Warren Burger called it “one
of the greatest pieces of fraud, I repeat the word ‘fraud,’
on the American public by special interest groups that I
have ever seen in my lifetime.” Warren E. Burger, PBS
NewsHour, December 16, 1991.
In 2008, the gun lobby’s decades-long effort came to a
head when the Supreme Court issued its decision in Heller.
Despite the preexisting judicial consensus that the Militia
Clause limited constitutional protection for firearm use to

6
the militia context, the Heller majority opinion rejected
the collective rights view and held for the first time that
the Second Amendment protects an individual right to
possess firearms in the home for self-defense 3 unrelated
to service in a well regulated militia. Heller, 554 U.S. at
635. Since that time, it has only become more clear that the
collective rights view is the correct one, and the individual
rights view cannot be squared with the language or intent
of the Second Amendment. For that reason, the Court
should take this opportunity to overrule Heller and return
to the collective rights view that governed for the vast
majority of American history.
III.	SUMMARY OF THE ARGUMENT
In holding that the Second Amendment grants an
individual right to firearms unconnected with service in
a militia, the majority opinion in Heller minimized the
language of the Militia Clause which expressly ties the
right to “keep and bear Arms” to the need for a “well
regulated Militia.” It reasoned that the Militia Clause
only indicated the reason for adopting the Arms Clause
and did not limit the grant of the Arms Clause. Heller,
554 U.S. at 578, 599-600. As to the Arms Clause, the
3. Note that, while we refer throughout to Heller’s holding
that the Second Amendment protects the individual right to
possess firearms in the home for self-defense, the notion that
handgun possession in the home confers a net protective benefit is
a myth that has been dispelled by, among other things, empirical
evidence that was presented to the Court in Heller. See, e.g.,
Brief of the American Academy of Pediatrics et al, District of
Columbia v. Heller, 2008 WL 157189 (U.S.); Brief for American
Public Health Association et al, District of Columbia v. Heller,
2008 WL 157191 (U.S.).

7
Heller majority opinion determined that the actual right
granted by the Arms Clause included the individual right
to use firearms for self-defense in the home because the
phrase “keep and bear Arms” (1) referred to individual
firearm use and not just collective militaristic use, and
(2) was intended to codify what was purportedly a widelyunderstood, preexisting right to use firearms in this way.
Id. at 581-95.
These propositions are not sufficiently supported
for the following reasons: (1) the tenets of constitutional
interpretation do not permit disregarding the Militia
Clause; (2) historical research consistently shows that both
“keep arms” and “bear arms” had a military connotation
during the founding era; (3) there is no evidence that the
Second Amendment was intended to codify a preexisting
right or that such a right even existed; (4) the drafting
history of the Second Amendment demonstrates that the
drafters did not intend for it to protect the individual,
personal use of firearms; and (5) the Second Amendment’s
description of the right to keep and bear arms as belonging
to “the people” does not establish that it provides an
individual right because that phrase is used elsewhere in
the Constitution to refer to collective rights as well as to
rights limited to a subset of people.
The collective rights view is the only interpretation
that gives effect to the language and history of the Second
Amendment, and neither the language of the Second
Amendment nor its history provide sufficient support
for the individual rights view. Accordingly, the Court
should overrule Heller and decide this appeal in favor of
Respondents.

8
IV. ARGUMENT
A.

Heller’s conclusion that the Second Amendment
protects an individual right to keep and bear
arms unrelated to service in a well regulated
Militia is inconsistent with the language and
history of the Second Amendment.
1.

Heller’s reasoning did not give effect to
the Second Amendment’s Militia Clause.

Under Miller and the many decisions that followed
it, the courts have held for almost all of U.S. history that,
consistent with the Militia Clause, the Second Amendment
provided only for a collective right to possess and use
firearms in connection with militia service. The Heller
majority recognized that this language had to have
some reasonable relationship to the right granted in the
Arms Clause. Id. at 577 (“Logic demands that there be
a link between the stated purpose and the command.”).
However, its ultimate conclusion eschewed any reasonable
relationship. Instead, it determined that the Arms Clause
granted an individual right to use firearms unconnected
to the militia, despite the contrary language in the Militia
Clause, because the Militia Clause states the reason for
adopting the Arms Clause without having any effect on the
protections granted within it. See id. at 599 (reasoning that
“[t]he [Militia Clause] does not suggest that preserving the
militia was the only reason Americans valued the ancient
right” and the “threat that the Federal Government would
destroy the citizens’ militia by taking away their arms”
was merely the “reason that right—unlike some other
English rights—was codified in a written Constitution.”).

9
The Militia Clause cannot be so easily cast aside. As an
initial matter, this interpretation is unreasonable because
it would mean that the right conferred was exponentially
more far-reaching than the purported justification.
Moreover, the Heller majority opinion’s determination that
the Militia Clause merely explains why the individual right
to firearms was being codified while other English rights
were not would mean that the drafters felt compelled to
explain the difference between this right and the excluded
rights even though the Constitution makes no mention of
those excluded rights. It is unreasonable to assume that
the Militia Clause was intended only to answer a question
the Constitution does not present.
However, this reading of the Militia Clause suffers
from an even more fundamental problem. In its view, the
scope of the Second Amendment’s protection would be
exactly the same regardless of whether the Militia Clause
was included or not. Such a reading is contrary to the
foundational principle that no language of the Constitution
should be rendered superfluous. See Marbury v. Madison,
5 U.S. 137, 174 (1803) (“It cannot be presumed that any
clause in the constitution is intended to be without effect
. . .”); Myers v. United States, 272 U.S. 52, 151 (1926)
(“[R]eal effect should be given to all the words [the
Constitution] uses.”); Prout v. Starr, 188 U.S. 537, 544
(1903) (“It is one of the important functions of this court to
so interpret the various provisions and limitations in the
organic law of the Union that each and all of them shall
be respected and observed.”).
Heller’s interpretation thus improperly reads the
Militia Clause out of the Second Amendment altogether.
In order to give effect to all the language of the Second

10
Amendment, it must be construed, as it always had been,
to protect only a collective right to firearms.
2.	Even disregarding the Militia Clause,
the Arms Clause itself only extends to
military contexts.
The Heller majority opinion’s interpretation of the text
of the Second Amendment started from the premise that
“[t]he Constitution was written to be understood by the
voters, its words and phrases were used in their normal and
ordinary as distinguished from their technical meaning.”
Heller, 554 U.S. at 576 (citing United States v. Sprague,
282 U.S. 716, 731 (1931).). Under that approach, any proper
construction of the Second Amendment requires that its
language be interpreted in accordance with how it would
have normally been understood during the founding era.
However, as explained below, overwhelming evidence
demonstrates that, during that time, the phrases “keep
arms” and “bear arms” were understood to refer to the
collective use of firearms in a military context. Therefore,
even if it was permissible to fully disregard the Militia
Clause, the Arms Clause itself only grants protection for
the collective, military use of firearms.
In holding that the phrase “keep and bear Arms” does
not refer only to the possession and use of firearms in a
military context, the Heller majority opinion found that
there was little evidence of how this phrase would have been
understood but that there were some contemporaneous
instances of a nonmilitary meaning. It found that the
“the phrase ‘keep arms’ was not prevalent in the written
documents of the founding period that we have found,”
but determined that the “few examples,” all favored “the

11
right to ‘keep Arms’ as an individual right unconnected
with militia service.” Id. at 582. As to “bear arms,” it
acknowledged that federal legal sources use the phrase
“bear arms” in a military context but found that this is
because those sources would “have little occasion to use
it except in discussions about the standing army and the
militia” and that other legal and non-legal sources did use
that phrase in nonmilitary contexts. Id. at 587-88 (emphasis
in original). Based on what it found to be a lack of evidence
to the contrary, the Heller majority opinion held that the
Second Amendment “conferred an individual right to keep
and bear arms.” Id. at 595.
This determination was inconsistent with the evidence
presented at the time, and to the extent there was any
remaining doubt, it has been eliminated by more recent
developments that have made even more clear that “keep
and bear Arms” refers to the possession and use of
firearms in a collective, military context.
a.	The Heller majority opinion did not
give sufficient weight to substantial
evidence that the phrase “bear arms”
had a military connotation.
The Heller majority opinion discounted extensive
evidence presented to it in 2008, which indicated that
“bear arms” had a distinctly military meaning. In an
amicus brief submitted in Heller, a group of English and
Linguistics professors explained:
The term “bear arms” is an idiom that means
to serve as a soldier, do military service, fight.
To “bear arms against” means “to be engaged

12
in hostilities with.” The word “arms” itself has
an overwhelmingly military meaning, referring
to weapons of offense or armor of defense. In
every instance we have found where the term
“bear arms” (or “bearing arms” or “bear arms
against”) is employed, without any additional
modify ing lang uage attached, the ter m
unquestionably is used in its idiomatic military
sense. It is only where additional language is
tacked on, either to bend the idiom by specifying
a particular type of fighting or to break the
idiom by adding incompatible language, that
the meaning of “bear arms” deviates. In the
Second Amendment, the term is employed in
its natural, unadorned state and, therefore, one
must conclude, was used idiomatically to refer
to military service.
Brief for Professors of Linguistics and English Dennis
E. Baron, Ph.D., Richard W. Bailey, Ph.D. and Jeffrey
P. Kaplan, Ph.D. in Support of Petitioners, District of
Columbia v. Heller, 2008 WL 157194 (U.S.), at *4.
The Ninth Circuit reached the same conclusion in
Silveira where it found that “[h]istorical research shows
that the use of the term ‘bear arms’ generally referred to
the carrying of arms in military service—not the private
use of arms for personal purposes.” 312 F.3d at 1072. In
making that determination, it set out a litany of historical
decisions demonstrating that this continued to be the
understanding of this phrase throughout the 19th century.
See English v. State, 35 Tex. 473, 476 (1872) (“The word
‘arms’ in the connection we find it in the constitution of
the United States, refers to the arms of a militiaman or

13
soldier, and the word is used in its military sense.”); State
v. Workman, 14 S.E. 9, 11 (W. Va. 1891) ( “[I]n regard to
the kind of arms referred to in the [Second A]mendment,
it must be held to refer to the weapons of warfare to be
used by the militia . . .”). Most notably, an 1840 decision by
the Tennessee Supreme Court found that the phrase “bear
arms” does not encompass personal use for, for example,
hunting. Aymette v. State, 21 Tenn. 154, 161 (1840) (“A
man in pursuit of deer, elk and buffaloes might carry his
rifle every day for forty years, and yet it would never be
said of him that he had borne arms . . .”).
b.	New empirical methods for studying
founding-era English usage further
demonstrate that the phrase “keep
and bear Arms” refers to collective,
military firearm use.
Recent advances in the research on this issue have
further bolstered the conclusion that the Arms Clause
provides only for collective, military firearm use. In
particular, the field of corpus linguistics has given scholars
a neutral, data-driven lens through which to examine the
historical use of the phrases “keep arms” and “bear arms.”
That discipline studies “language based on examples of
‘real life’ language use.” Tony McEnery & Andrew Wilson,
Corpus Linguistics: An Introduction, 1 (2d ed. 2001).
This is to say that it focuses on the contemporaneous and
ordinary language use that the Heller majority opinion
acknowledged should guide the interpretation of the
Second Amendment.
This study is done by analyzing a ‘corpus’ (or ‘corpora’
plural) which is a “searchable body of texts used to

14
determine meaning through language usage.” James C.
Phillips, Daniel M. Ortner & Thomas R. Lee, Corpus
Linguistics & Original Public Meaning: A New Tool
To Make Originalism More Empirical, 126 Yale L.J.
Forum 21, 24 (2016). Through the use of these data sets,
researchers are able to gather information about “which
meanings were possible at a given time, and what their
relative distribution and frequency were.” Alison L.
LaCroix, Historical Semantics and the Meaning of the
Second Amendment, The Panorama (Aug. 3, 2018).
Since Heller was decided, the development of
two corpora at Brigham Young University has shed
substantially more light on what it meant to “keep arms”
or “bear arms” during the founding era. The Corpus of
Founding Era American English (“COFEA”) includes over
120,000 texts and 154 million words from primary sources
from between 1760 and 1799. The Corpus of Early Modern
English (“COEME”) includes 40,000 texts and nearly 1.3
billion words from sources dating back to 1475.
Studies analyzing this wealth of data with these
objective methods have found that the phrase “bear arms”
in the Second Amendment has a collective connotation,
typically referring to “the act of soldiering and the use
of weapons in war.” Dennis Baron, Corpus Evidence
Illuminates the Meaning of Bear Arms, 46 Hastings
Const. L.Q. 509, 513 (2019); LaCroix, supra. A survey of
both legal and non-legal texts in COFEA and COEME from
the founding era determined that they “almost always use
bear arms in an unambiguously military sense.” Baron,
supra, at 510-11 (emphasis in original). An examination
of almost 1,000 uses of “bear arms” in “seventeenth- and
eighteen-century English and American texts” found that

15
“roughly 900 separate occurrences of bear arms before
and during the founding era refer to war, soldiering, or
other forms of armed action by a group rather than an
individual.” Id. at 510 (emphasis in original). In contrast,
“[n]on-military uses of bear arms in reference to hunting
or personal self-defense are not just rare, they are almost
nonexistent.” Id. (emphasis in original).
An examination of uses of “keep arms” similarly
concluded that, in founding-era sources, it “almost
always appears in a military context.” Id. at 513. Between
COEME and COFEA, there were a total of twenty-six
occurrences of “keep arms” excluding duplicates and one
instance where “keep” was used to mean “prevent,” “as
in ‘to keep arms from somebody.’” Id. Of those twenty-six
occurrences, twenty-five “refer[red] to weapons for use in
the military or the militia,” and one was ambiguous. Id.
Together, these authorities demonstrate that the
Arms Clause, even in isolation, would not have been
understood at its adoption to confer an individual right
to firearms unconnected with militia service. The Heller
majority opinion read it to afford this right based on a lack
of clear evidence to the contrary, but the analyses that
have since been conducted based on much larger samples
of contemporaneous sources show that both “keep arms”
and “bear arms” had a distinctly military connotation.
Therefore, even if the Militia Clause is disregarded, the
Second Amendment, at most, protects the possession and
use of firearms in a collective, military context.

16
3.	There is no evidence that the Second
Amendment was understood to codify a
preexisting right to bear arms.
The Heller majority opinion found that the Second
Amendment was intended to “codif[y] a right inherited
from our English ancestors.” Heller, 554 U.S. at 599
(quotations omitted). However, the historical record does
not support that the Second Amendment intended to
codify a preexisting individual right to firearms or that a
general right to do so was understood to exist at the time
the Second Amendment was adopted.
First, none of the language in the Second Amendment
can be read as conveying an intent to codify a preexisting
individual right to possess and use firearms for selfdefense. The Arms Clause states only that “the right of the
people to keep and bear Arms, shall not be infringed.” The
Heller majority opinion reasoned that the language “shall
not be infringed” “implicitly recognizes the pre-existence
of the right . . .” Id. at 592. However, taking that for
granted, it leaves the question of what right is purportedly
being codified. The only right referenced in the text is
the right to “keep and bear Arms.” As discussed, that
phase was understood to refer to the use of firearms in a
military context. When that meaning is applied, the only
preexisting right that the Second Amendment purports
to codify, if any, is the collective military use of firearms.
Therefore, even if there was a preexisting individual right
to possess and use firearms for self-defense, the language
of the Second Amendment does not incorporate it.

17
Moreover, the existence of that right prior to the
adoption of the Second Amendment is itself not supported
by the historical record. The Heller majority opinion’s
finding that there was such a right was based on a
provision in the English Bill of Rights which stated “That
the Subjects which are Protestants, may have Arms for
their Defence suitable to their Conditions, and as allowed
by Law.” Id. at 593. This was far from an individual right
for all citizens to have and use firearms in self-defense.
Even the Heller majority opinion recognized that it was a
“right not available to the whole population, given that it
was restricted to Protestants, and like all English rights
it was held only against the Crown, not Parliament.” Id.
Nonetheless, the Heller majority opinion stated that
“[b]y the time of the founding, the right to have arms had
become fundamental for English subjects.” Id. Historically,
that statement is inaccurate. Indeed, another source relied
upon by the Heller majority opinion, George Tucker’s
Blackstone Commentaries from the year 1803, makes that
clear. The Heller majority opinion cited portions of that
text as purported evidence that founding-era scholars
interpreted the Second Amendment as protecting an
individual right unconnected with militia service. Id. at
606. However, while George Tucker commented in that
text that the right to possess firearms for self-defense
was purportedly the “palladium of liberty,” he went on
to explain that, although the English Bill of Rights might
seem to prohibit disarmament of the people at first glance,
it had been construed to only protect gun ownership rights
for a narrow subset of English subjects.4 He stated:
4. St. George T ucker and Si r William Blackstone,
Blackstone’s Commentaries: With Notes of Reference to the
Constitution and Laws, of the Federal Government of the United

18
True it is, their bill of rights seems at first
view to counteract this policy [of disarming the
people] : but the right of bearing arms is confined
to protestants, and the words suitable to their
condition and degree, have been interpreted
to authorise the prohibition of keeping a gun
or other engine for the destruction of game,
to any farmer, or inferior tradesman, or other
person not qualified to kill game. So that not
one man in five hundred can keep a gun in his
house without being subject to a penalty.
Id.
This authority which the Heller majority opinion
considered reliable in its analysis firmly demonstrates
that founding-era Americans could not have inherited
any belief from the English that there was a universal,
individual right to possess and use firearms for selfdefense. Even as to English subjects at that time, the
English Bill of Rights was understood to provide only
token protection for individual gun use such that all but a
few could be prohibited from keeping a gun in their home.
The preexisting right found to have been inherited from
the English did not exist even in England. 5 Therefore,
States, and of the Commonwealth of Virginia : With an Appendix
to Each Volume, Containing Short Tracts Upon Such Subjects
as Appeared Necessary to Form a Connected View of the Laws of
Virginia as a Member of the Federal Union, Volume First, Part
First, Appendix, Note D: View of the Constitution of the United
States, 300 (1996).
5. The current state of gun regulation in Great Britain
further demonstrates that the English Bill of Rights never
provided a broad right to individual gun use. The English Bill

19
the evidence that the Heller majority opinion was based
upon does not support that the Second Amendment was
understood to incorporate any right broader than exactly
what it specifies—the right to possess and use firearms
in connection with militia service.
4.	The drafters knowingly declined to include
language in the Second Amendment that
would have provided for an individual
right to use firearms for self-defense.
While the Second Amendment was being drafted, the
drafters had the option of including language from state
proposals or previously-adopted state constitutions that
referred specifically to the use of firearms for defense.
of Rights remains in effect today. See, e.g., R v. Secretary of
State for Exiting the European Union [2017] UKSC 5, (appeal
taken from N. Ir.) (2017 United Kingdom Supreme Court case
citing the English Bill of Rights). But that fact did not present
any obstacle to the UK Parliament’s adoption of a complete ban
on handguns in 1998. Michael J. North, Gun Control in Great
Britain after the Dublane Shootings, Reducing Gun Violence
in America: Informing Policy with Evidence and Analysis,
185-193, 191 (2013). Although that handgun ban faced opposition
by gun enthusiasts, see id at 190-91, the primary reports leading
up to its adoption did not so much as reference the English Bill
of Rights as an impediment. See generally Lord Douglas Cullen,
The Public Inquiry into the Shootings at Dunblane Primary
School on 13 March 1996 (1996), https://assets.publishing.service.
gov.uk/government/uploads/system/uploads/attachment_data/
file/276631/3386.pdf (last visited September 15, 2021); The Public
Inquiry into the Shootings at Dunblane Primary School on
March 13, 1996: The Government Response (1996), https://assets.
publishing.service.gov.uk/government/uploads/system/uploads/
attachment_data/file/276636/3392.pdf (last visited September
15, 2021).

20
They chose not to do so and instead focused the text of
the Second Amendment on the importance of the militia
and the preservation of the use of arms in that capacity.
Their decision not to incorporate the language that others
had proposed or used to extend protection to individual
firearm use for self-defense is evidence that they did not
intend the Second Amendment to extend that far.
At the first Federal Congress, three states, Virginia,
North Carolina, and New York, sent proposals for
amendments to the Constitution which addressed
protecting the institution of the militia from the new
federal Government. Heller, 554 U.S. at 655 (Stevens,
J. dissenting). Each focused on the dangers posed by
standing armies and the importance of preserving state
militias. Id. The Virginia proposal was the most influential
on what became the Second Amendment. It read:
17th. That the people have a right to keep
and bear arms; that a well-regulated militia,
composed of the body of the people trained to
arms, is the proper, natural and safe defence
of a free state; that standing armies, in time of
peace, are dangerous to liberty, and therefore
ought to be avoided, as far as the circumstances
and protection of the community will admit; and
that, in all cases, the military should be under
strict subordination to, and be governed by, the
civil power . . .
19th. That any person religiously scrupulous
of bearing arms ought to be exempted, upon
payment of an equivalent to employ another to
bear arms in his stead.

21
Id. at 656 (Stevens, J. dissenting) (citations omitted).
This proposal expressly provided protection for
firearm use only in connection with the militia. In addition
to explaining that the protection for firearm use was
based on the importance of preventing standing armies
from overreaching, the latter portion of the proposal
provides that those with religious reservations against
“bearing arms” could be exempted from doing so if they
paid someone to serve in their place. Consistent with
the empirical research discussed above, that exemption
further demonstrates that the phrase “bearing arms”
in the context of the Second Amendment referred to
the collective, militaristic use of firearms. Id. at 661
(Stevens, J. dissenting) (explaining that, based on this
exemption, the phrase “bear arms” had to be understood
as “unequivocally and exclusively military” because
“[t]he State simply does not compel its citizens to carry
arms for the purpose of . . . self-defense.”).6

6. North Carolina adopted the Virginia proposal as its own,
and New York made its own proposal that used substantially
similar language. Id. at 656 (Stevens, J. dissenting). The New
York proposal read:
That the people have a right to keep and bear Arms;
that a well regulated Militia, including the body of
the People capable of bearing Arms, is the proper,
natural, and safe defence of a free State .... That
standing Armies, in time of Peace, are dangerous to
Liberty, and ought not to be kept up, except in Cases
of necessity; and that at all times, the Military should
be kept under strict Subordination to the civil Power.
Id. at 657 (Stevens, J. dissenting) (citation omitted).

22
Additionally, there were several other states that did
not send proposed amendments to Congress but where a
minority of delegates advocated for related amendments.
Id. at 656-57 (Stevens, J. dissenting). Most notably, a
minority of delegates from Pennsylvania signed a proposal
that, in contrast to the Virginia proposal, explicitly
protected the use of firearms for self-defense and hunting.
The Pennsylvania proposal read:
7. That the people have a right to bear arms
for the defense of themselves and their own
State, or the United States, or for the purpose
of killing game; and no law shall be passed
for disarming the people or any of them unless
for crimes committed, or real danger of public
injury from individuals; and as standing armies
in the time of peace are dangerous to liberty,
they ought not to be kept up; and that the
military shall be kept under strict subordination
to, and be governed by the civil powers.
Id. at 658 (Stevens, J. dissenting) (emphasis added)
(citation omitted).
With all of this language available to him, James
Madison, the primary drafter of the Second Amendment,
chose not to include any of the language that had been
proposed to provide protection for the use of firearms
for self-defense or hunting. See id. at 659 (Stevens,
J. dissenting). Instead, his first draft of the Second
Amendment took the substance of the militia-focused
Virginia proposal and revised it to more concisely read:
“The right of the people to keep and bear arms shall
not be infringed; a well armed, and well regulated

23
militia being the best security of a free country; but no
person religiously scrupulous of bearing arms, shall be
compelled to render military service in person.” Id. at
659-60 (Stevens, J. dissenting). The clause exempting
“religiously scrupulous” persons was eventually removed
due to concerns that Congress would be able to circumvent
the amendment’s protection and disarm the militias by
defining “religiously scrupulous” broadly. See id. at 660
(Stevens, J. dissenting) (explaining that arguments in the
House of Representatives reflected concern that “Congress
‘can declare who are those religiously scrupulous, and
prevent them from bearing arms.’”) (citation omitted).
What remained was a streamlined version of the language
that had been proposed by Virginia specifically to prohibit
the disarmament of the militia. While the drafters had
the opportunity to provide constitutional protection for
the individual use of firearms, they chose not to do so.
In disregarding this intentional word choice, the
Heller majority opinion reasoned that any reliance on
the drafting history is “dubious” when “interpret[ing] a
text that was widely understood to codify a pre-existing
right” and concluded that the version of the Second
Amendment that was ultimately adopted merely codified
that individual right. See id. at 603-04. However, the notion
that there was such a “pre-existing right” is, as discussed,
a historical fiction. Moreover, in arguing that preexisting
state constitutions supported the individual rights view,
the Heller majority opinion also failed to give weight to the
distinct language of the Second Amendment. It pointed
to Pennsylvania’s Declaration of Rights of 1776 which
stated “That the people have a right to bear arms for the
defence of themselves and the state . . .” and Vermont’s 1777
constitution which had substantially the same language.

24
Id. at 600-01 (emphasis added by court). It asserted that
these “analogous arms-bearing rights” “confirmed” that
its adoption of the individual rights view was correct, but it
ignored the crucial distinction—the drafters of the Second
Amendment chose different language. Id. at 600-01. The
language that the Heller majority opinion emphasized
in those state constitutions is nowhere to be found in the
Second Amendment.
The drafters of the Second Amendment chose its
language carefully. They granted a specific right using
terms that were understood at the time to refer to the
collective, militaristic use of firearms and explained
that this grant was made in order to protect the militia
as an institution. While the drafters easily could have
incorporated language to protect the individual use of
firearms if that was their intent, they did not do so. The
Second Amendment says what it says, and its actual
language and intent must be given effect.
5.	The Second Amendment’s reference to
the right to keep and bear arms as a right
of “the people” does not establish that it
was an individual right belonging to every
person.
Petitioners assert that, by describing the right to keep
and bear arms as belonging to “the people,” the Second
Amendment provides all people with the right to carry
firearms in public without meaningful regulation. In doing
so, they are seeking to extend the Heller majority opinion’s
improper determination that the use of the phrase “the
people” indicated that the right conferred by the Second
Amendment was an individual right rather than a

25
collective right. Contrary to these conclusions, the use of
“the people” elsewhere in the Constitution demonstrates
that its use in the Second Amendment does not indicate,
let alone establish, that the right to keep and bear arms
is an individual right.
First, the Heller majority opinion improperly found
that the use of “the people” in the Second Amendment
supported the notion that the right to keep and bear
arms is an individual right because that phrase was
purportedly used in connection with individual rights
in the First Amendment and the Fourth Amendment.
Id. at 579. That proposition is incorrect in that the First
Amendment refers to “the people” only in the context
of the right to assembly which could only be considered
a collective right. Id. at 644-46 (Stevens, J. dissenting).
Just as the First Amendment provides that “the people”
have a right to “assemble” which can only be exercised
as part of a group, the Second Amendment provides that
“the people” have a right to keep and bear arms only as
part of a militia.
Second, the Heller majority opinion improperly
construed “the people” broadly to mean “all members
of the political community” and found that reading the
right to keep and bear arms as limited to the organized
militia was inconsistent with that definition. Id. at 57981. It reasoned that, insofar as the militia at the time
of the founding was limited to able-bodied males of
certain ages, limiting the specified right to that subset
of individuals was incompatible with the notion that it
belonged to “all members of the political community.” Id.
at 580-81. However, not only is that reasoning internally
inconsistent with the Heller majority opinion’s conclusion

26
that the right to keep and bear arms extends only to
the subset of people who are “law-abiding responsible
citizens,” the Constitution makes clear elsewhere that the
drafters can and did use “the people” to refer to subsets
of individuals. By providing in Article I that the House
of Representatives shall be chosen by “the People of the
several States,” the Constitution delegated that power
to the states which had different voting practices. The
Meaning(s) of “The People” in the Constitution, 126 Harv.
L. Rev. 1078, 1091 (2013). The result was that, in practice,
“the People” here “largely meant property-owning white
adult males” and also “meant different things in different
states.” Id. This is to say that, at the founding, the notion
that a right belonged to “the people” was not inconsistent
with the right only being afforded to a subset of people
such as those making up the militia. In fact, during the
founding era, gun ownership itself was limited to persons
meeting specific criteria. Id. at 1093 (“At the time of the
Founding, the right to bear arms was limited to certain
adult male citizens and those individuals who swore
allegiance to the state…The Founding generation had a
racialized, gendered, and class-stratified understanding
of persons permitted to own guns. This generation also
disarmed certain white males, including felons and British
loyalists . . .”).
The fact that the Second Amendment’s right to keep
and bear arms belongs to “the people” did not provide any
support for the Heller majority opinion’s adoption of the
individual rights view, and it does not provide any basis
now for holding that all people must be permitted to carry
firearms in public.

27
B.	The Court should overrule Heller.
This Court has acknowledged that it will overturn
a past decision if “there are strong grounds” and that
doing so is particularly appropriate when interpreting the
Constitution. Janus v. Am. Fed’n of State, Cty., & Mun.
Emps., Council 31, 138 S. Ct. 2448, 2478 (2018); see also
Agostini v. Felton, 521 U.S. 203, 236 (1997) (explaining
that stare decisis “is at its weakest when we interpret the
Constitution because [the Supreme Court’s] interpretation
can be altered only by constitutional amendment or by
overruling prior decisions.”). Factors the Court has found
should be considered when making this determination
include (1) “the [precedent’s] consistency with other related
decisions, (2) “the quality of [the precedent’s] reasoning,”
(3) “developments since the decision was handed down,”
(4) “the workability of the rule it established,” and
(5) “reliance on the decision.” Janus, 138 S. Ct. at 2478-79.
Based on these factors, it is both necessary and
appropriate to overturn Heller. That decision’s adoption
of the individual rights view was a complete departure
from how the Second Amendment had been understood
and applied from the founding to the modern era. The
majority opinion’s reasoning did not justify that departure.
It was based on the mistaken premise that there was a
preexisting individual right to keep and bear arms that
was inherited from the English and imported into the
Second Amendment. The evidence available at that time
demonstrated that the English had no such right, and even
if they did, the drafters never intended to adopt it. The
developments in linguistic research since that time have
only further reinforced that the language the drafters
chose for the Second Amendment did not provide for an

28
individual right to use firearms in self-defense. That right
is simply nowhere to be found in the Second Amendment.
Moreover, as states have attempted to combat the
gun-related injuries and mass shootings that have come
to plague American society, Heller’s rule has proved to be
an unworkable impediment. Its adoption of the individual
rights view created a constitutional obstacle where none
previously existed and provided the gun lobby with the
ability to bring constitutional challenges to block or, at the
least, impede the enactment of any significant limitation
on firearms. The pending appeal, which seeks to strike
a down a longstanding regulatory scheme that places
reasonable restrictions on individuals’ ability to carry
guns public, is only one example of how the gun lobby
has sought and will continue to seek to expand Heller’s
holding and exacerbate its effects. Having succeeded in
using misinformation to change the recognized scope
of the Second Amendment, the gun lobby is continuing
on a campaign to misapply the Second Amendment and
eliminate any meaningful gun regulations whatsoever.
See, e.g., Duncan v. Becerra, 970 F.3d 1133 (9th Cir. 2020)
(review pending) (holding that, under Heller, a law was not
even allowed to limit the permissible number of bullets
in a magazine even though it did not restrict the use or
possession of any gun).
The urgency of the need to overrule Heller’s
unsupported adoption of the individual rights view
cannot be overstated. The number of American civilians
killed annually with guns has been rising steadily since
the 2008 Heller decision and is now at a historic high of
approximately 40,000 per year. See Fatal Injury Data |
WISQARS | Injury Center | CDC, Centers for Disease

29
Control and Prevention, http://w w w.cdc.gov/injury/
wisqars/fatal.html (last visited September 15, 2021). The
U.S. rate of gun-related deaths is ten times higher than the
average rate for peer countries. Erin Grinshteyn & David
Hemenway, Violent Death Rates: The US Compared with
Other High-Income OECD Countries, 2010, 129(3) Am
J Med 266 (2016). The U.S. homicide rate is seven times
higher than the average for peer countries, driven by a
gun-related homicide rate that is 25 times higher. Id. Since
1968, the number of American civilians that have died of
gunshot wounds is greater than the number of American
soldiers that have been killed in combat by any means in
all the wars in which the U.S. has ever been involved. Lois
K. Lee et al., Firearm Laws and Firearm Homicides: A
Systematic Review, JAMA Intern. Med. (2017). Even with
much of the country on lockdown, unofficial data indicates
that 2020 was the worst year in U.S. history for gun
violence, with more than 44,000 gun-related deaths. Reis
Thebault and Danielle Rindler, Shootings never stopped
during the pandemic: 2020 was the deadliest gun violence
year in decades, The Washington Post (March 23, 2021),
https://www.washingtonpost.com/nation/2021/03/23/2020shootings/ (last visited September 15, 2021).
The issue before the Court is, quite literally, a
matter of life and death. The Petitioners’ position is
based on entirely on the unsupported ruling in Heller,
and accordingly, this appeal should be decided in favor
of Respondents. However, this is only one instance of
the broader harm being caused by the Heller decision.
With every day that Heller is allowed to prevent or delay
effective gun regulation, more American lives are lost in
preventable deaths. The Court should act now to overrule
Heller and give American legislatures back the means
necessary to stem the nation’s gun crisis.

30
V.	CONCLUSION
For the foregoing reasons, AAGunV respectfully
requests that this Court overrule its decision in Heller,
decide this appeal in favor of Respondents, and affirm the
decision of the Second Circuit.
Dated: September 21, 2021
Respectfully submitted,
A nthony Schoenberg
Patrick Loi
Counsel of Record
Farella Braun + Martel LLP
235 Montgomery Street, 17th Floor
San Francisco CA 94104
(415) 954-4400
ploi@fbm.com
Counsel for Amicus Curiae
Americans Against Gun Violence

